No.

21 “5667

ORIGINAL
filed
AUG 1 6 2021

IN THE

§JPREEMEFCOnRTLi^K

SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
vs.

Lkitep £nvres

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Unitep Stw€s Couht

oa

f\ppeAis m

tiftturr

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Dfwio LocK/>dlle^
(Your Name)

£(oO ZVth
(Address)

Tan FRhHciscQ; CA
(City, State, Zip Code)

(Phone Number)

Nrr £

Questions Presented to the Justices of the United States Supreme Court
First Question: Given the fact that the Constitution of the United States, Amendment I reads in pertinent
part that "Congress shall make no law . . . abridging . . . the right of the people ... to petition the
Government for redress of grievances," what gives Congress the authority to legislatively interfere and
prohibitively limit, by provisions of Federal Tort Claims Act (FTCA) § 2678, any and every citizen's right to
freely negotiate a contingency fee arrangement with an attorney of plaintiff's choice in a FTCA lawsuit?

Second Question: In strict compliance with the U. S. Supreme Court precedent in Ashcroft v. Iqbal, 556
U.S. 662, 678-679 (2009), was it not an abuse of discretion for the federal Ninth Circuit Court of Appeals
to refuse to consider newly found and specifically relevant dispositive evidence completely discrediting
the invalid syllogism of fact and law created by the Magistrate Judge in the Screening Order which led
directly to the unjust dismissal of Petitioner's legitimate FTCA lawsuit?

i

Table of Contents

Page
Questions Presented
Table of Contents

ii

Table of Authorities

iii

Opinions Below

IV

Jurisdiction

IV

Petition for Writ of Certiorari............................................................................................

IV

First Question - Reasons for Writ Allowance, with key controlling precedent.................

1

Federal Tort Claims Act (FTCA) § 2678 — First Amendment Violation Argument.......

3

Case Facts, from Informal Opening Brief to Court of Appeals....................................

6

Second Question Reason for Writ Allowance is key controlling precedent......................

7

Case Dismissal by the District Court............................................................................

8

Ninth Circuit Form 27 Motion for Taking Judicial Notice to Supplement Case Record

10

Case Dismissal Affirmed by Court of Appeals..............................................................

11

i

Reasons for Writ Allowance - FTCA § 2678 and Ashcroft v. Iqbal Historical Perspectives .

13

Conclusion....................................................................

16

Index to Appendices
Appendix A - Decision of the United States Court of Appeals
Appendix B - Decision of the United States District Court
Appendix C - Findings and Recommendations of the United States Magistrate Judge
Appendix D - Petition for Rehearing En Banc by Ninth Circuit Court of Appeals Denied
Appendix E - Neighbor's Statement
Appendix F - FoodSafety.gov on Bacillus cereus
Appendix G - Center for Disease Control publication "Diagnosis of Foodborne Illnesses"
Appendix H - Ninth Circuit Form 27 Motion for Taking Judicial Notice to Supplement Record

ii

Table of Authorities
Page
Cases
Allen v. United States, 606 F.2d 432 (4th Cir. 1979)........................

1

Ashcroft v. Iqbal, 556 U.S. 662 (2009)..............................................

7,8,11

Ashcroft v. Iqbal (continued)........................................................

13,16

BellAtl. Corp. v. Twombly, 550 U.S. 544 (2007)............................... .

8

Freeman v. Ryan, 408 F.2d 1204 (D.C.Cir. 1968)..............................

1

Hicks [Golf Caddies] v. PGA Tour Inc., 897 F.3d 1109 (9th Cir. 2018)

8, 13

Jackson v. United States, 881 F.2d 707 (9th Cir. 1989).....................

1

Joe v. United States, 772 F.2d 1535 (11th Cir. 1985).

3

Lam v. United States, 979 F.3d 665 (9th Cir. 2020)...

11

Legal Services v. Velazquez, 531 U.S. 533 (2001)......

3

Perry v. United States, 294 U.S. 330, (1935).............

14

Shkelzen Berisha v. Guy Lawson, EtAI, 594U.S.___ (2021)

12,16

Vega v. United States, 881 F.3d 1146 (9th Cir. 2018)

8

Wyatt v. United States, 783 F.2d 45 (6th Cir. 1986)..

1

United States Constitution
U.S. Const., amend 1

1

Federal Statutes
Federal Tort Claims Act (FTCA) 28 USCS § 2678

1, 2,3

Additional FTCA § 2678...............................

4, 5,6

FTCA - 28 USCS § 2675

5, 6,7

FTCA-28 USCS § 2679(a)

4

FTCA -28 USCS § 1346(b)

4,8,11

State Statutes
Title 17 Public Health § 2500 Reporting to the Local Health Authority -

iii

i

Page
17 CCR § 2500

6,9

17 CCR § 2500(a)

6,9

17 CCR § 2500(b)

10,11,13

17 CCR § 2500(c)

13

17 CCR §2500Q).

8,9,11

California Retail Food Code

10

Other Authorities
LexisNexis United States Code Service.......................................................................................

2

FoodSafety.gov .......................................................................................................................

7

Center for Disease Control (CDC) publication titled "Diagnosis and Management of Food Borne
Illnesses," and subtitled "A Primer for Physicians and Other Health Care Professionals"............

10

California Department of Public Health form, titled FOODBORNE DISEASE OUTBREAK REPORT

10

"Personal Recollections of Abraham Lincoln," Basler, Roy A. (1946)..........................................

12

Wikipedia - FTCA................................................................................................................

14

Alexander Hamilton's Works................................................................................................

15

Opinions Below
The decision by the Ninth Circuit Court of Appeals denying Petitioner's direct appeal is
unreported. The Ninth Circuit Court of Appeals en Banc denied Lockmiller's petition for rehearing.
Jurisdiction
The United States Court of Appeals decided Petitioner's case on February 23, 2021. A timely
petition for rehearing was denied by the United States Court of Appeals en Banc on May 28,2021.
A copy of the order denying rehearing appears at Appendix D.
The jurisdiction of the U. S. Supreme Court is invoked under 28 U. S. C. § 1254(1).
Petition for Writ of Certiorari
Petitioner Lockmiller respectfully petitions this court for a writ of certiorari to review the
judgment of the Ninth Circuit Court of Appeals.

iv

r

Petition for Writ of Certiorari
First Question - Reasons for Writ Allowance, with key controlling precedent: Given the fact that the
Constitution of the United States, Amendment I reads in pertinent part that "Congress shall make no law
... abridging ... the right of the people ... to petition the Government for redress of grievances," what
gives Congress the authority to legislatively interfere and prohibitively limit, by provisions of Federal Tort
Claims Act (FTCA) § 2678, any and every citizen's right to freely negotiate a contingency fee arrangement
with an attorney of plaintiff's choice in a FTCA lawsuit?

In Jackson v. United States, 881 F.2d 707, 710-11, (1989), a unanimous Ninth Circuit Federal Court of
Appeals implicitly ruled that Congress does not have the constitutional authority to enact this legislation.
Three justices of this federal Court of Appeals created in dictum a constitutional signpost on the
constitutional right of a FTCA plaintiff to negotiate a contingency fee arrangement. Ninth Circuit Court of
Appeals Judge Charles E. Wiggins, formerly a U. S. Representative, wrote the opinion for the unanimous
court. In ruling on a FTCA § 2678 case, not directly involving this particular First Amendment constitutional
issue, the Court implicitly recognized the First Amendment constitutional right of a plaintiff to be able to
hire an attorney by means of a contingency fee arrangement to "speak" in court in the plaintiff's behalf:

Other courts, like the district court below, have treated this standing problem differently. But we
cannot accept the rationale of these cases, which rests on a fiction that the "government has an
interest in seeing that funds it owes to litigants are disbursed properly," Allen v. United States, 606
F.2d 432, 434 (4th Cir. 1979), "even though . . . the fee does not decrease the funds in the
Treasury," Freeman v. Ryan, 408 F.2d 1204, 1206 (D.C. Cir. 1968); accord Wyatt v. United
States, 783 F.2d 45, 46 (6th Cir. 1986) (government had standing to challenge contingency fee
agreement that violated § 2678 of the FTCA). Quite simply, these cases fail to explain adequately
what interest the government has in ensuring that the opposing parties’ attorney does not collect
an excessive fee.
Undoubtedly the "injury" under circumstances such as these is to the clients of the offending
attorney; they are the ones who must compensate their attorney more than he is purportedly
entitled. One might argue that the government suffers an injury derivative of the clients' because
the excessive fee makes them unwilling to settle the case for a lesser amount, thereby effectively
increasing the government’s ultimate liability. ... The only other theory that is even remotely
persuasive is that the government has an actual interest in ensuring that federal entitlement
1

programs are not subverted by attorneys who wrestle congressionally appropriated funds from
proper claimants.
According to the LexisNexis United States Code Service - Lawyers Edition {including May, 2019 Cumulative
Supplement), at 28 USCS Judiciary and Judicial Procedure § 2678, this particular section of federal law has
never been challenged in a federal lawsuit as a violation of the United States Constitution since the Federal
Tort Claims Act was enacted in 1946. Fittingly, the United States Supreme Court will be the "court of first
impression" on this critically important constitutional question for the vast majority of low and middleincome future Federal Tort Claims Act litigants in cases a lawyer will be needed to present a claimant's
FTCA case in court.

Federal Tort Claims Act (FTCA) § 2678 reads in its entirety:

No attorney shall charge, demand, receive, or collect for services rendered, fees in excess of 25
per centum of any judgment rendered pursuant to section 1346(b) of this title or any settlement
made pursuant to section 2677 of this title, or in excess of 20 per centum of any award,
compromise, or settlement made pursuant to section 2672 of this title.
Any attorney who charges, demands, receives, or collects for services rendered in connection with
such claim any amount in excess of that allowed under this section, if recovery be had, shall be
fined not more than $2,000 or imprisoned not more than one year, or both.
(June 25,1948, ch. 646, 62 Stat. 984; Pub. L. 89-506, § 4, July 18,1966, 80 Stat. 307.)
Significantly, an attorney would only be able to contest the constitutionality of § 2678 of the FTCA by
actually accepting a contingency fee arrangement for more than 25 percent of the compensatory damages
settlement. The attorney would then be at risk of a year in prison plus a fine for the FTCA § 2678 violation.
Petitioner is unaware of any such pertinent case law.

Thus, Congress has written a provision into law. Federal Tort Claims Act § 2678, to the effect, that if a
FTCA low or middle income plaintiff cannot find an attorney willing to accept a "charity" rate 25 percent
contingency fee arrangement, the legitimate FTCA plaintiff is left with no choice but to "speak" in court
as the attorney pro se, or forfeit the case. Petitioner chose to "speak" in court as the attorney pro se.

2

The United States Supreme Court, in Legal Services v. Velazquez, 531 U.S. 533 (2001), from the viewpoint
of the courts, warned all courts to beware similar such legislated First Amendment constitutional
violations enacted by Congress: "fflhe enactment under review prohibits speech and expression upon
which courts must depend for the proper exercise of the judicial power." Id. 545. "The Constitution does
not permit the Government to confine litigants and their attorneys in this manner. We must be vigilant
when Congress imposes rules and conditions which in effect insulate its own laws from legitimate judicial
challenge." Id. 548.

Petitioner presented the same First Amendment constitutional arguments to both the District Court and
the Federal Court of Appeals, supported by relevant FTCA judicial precedents.

The Ninth Circuit Court of Appeals concluded in its tersely-worded Memorandum affirming the District
Court's Order of Case Dismissal: "We reject as without merit Lockmiller's contention that the FTCA's
limitations on attorney's fees violated his First Amendment rights." [Emphasis added.] [Supreme Court Exhibit A.]

Federal Tort Claims Act (FTCA) § 2678 - First Amendment Violation Argument
An attorney "speaking" in court on behalf of the FTCA client is a First Amendment right of the claimant
when exercised by means of a contingency fee arrangement. By the enactment of § 2678, Congress has
effectively negated this constitutional right of a FTCA claimant to "speak" in court by means of competent
legal representation regarding the Federal Tort Claims Act claim. FTCA § 2678 is therefore
unconstitutional. [District Court Amended Complaint, p. 13; Appellant's Informal Opening Brief, p. 16 .]

In Joe v. United States, 772 F.2d 1535, 1536-1537(llth Cir. 1985) the United States Court of Appeals
illuminated the history, provisions, and stated purpose of § 2678:

The FTCA does not expressly provide for attorneys' fees against the United States. The only
mention of attorneys' fees within the FTCA occurs in Section 2678, which prohibits an attorney
from charging fees in excess of 25 percent of the judgment. Section 2678 was amended in 1966,
3

at which time Congress raised that limit on attorneys' fees from 20 percent to the present level
of 25 percent. The legislative history of that amendment indicates that its purpose was to 'assure
competent representation and reasonable compensation' in matters litigated under the FTCA.
S.Rep. No. 1327, 89th Cong., 2d Sess. (1966) U.S. Conde Cong. Ad.News 2515,2520. The increase
was intended to bring attorneys' fees under the act "more nearly in line with those prevailing in
private practice." (Amended Complaint, page 11, paragraph 5, lines 1-12.)
If Congress had intended at the time of the 1966 amendment to encourage attorneys to bring
FTCA claims not by increasing the percentage of the judgment available to attorneys but, instead,
by providing for an award of attorneys' fees from the United States, Congress couid easily have
done so. However, the legislative history implies that Congress viewed FTCA claims as typically
involving contingent fee arrangements. The 1966 amendment was designed to bring the
permissible contingent fee more nearly in line with that which prevailed in tort claims against
private parties. The FTCA does not contain the express waiver of sovereign immunity necessary
to permit a court to award attorneys' fees against the United States directly under that act.
(Amended Complaint, page 11, paragraph 5, lines 13-20.)
Thus, the legislative history of that amendment to Section 2678 shows that its purpose was to "assure
competent representation and reasonable compensation" in matters litigated under the FTCA. And, as
the Joe court prominently noted: "Congress viewed FTCA claims as typically involving contingent fee
arrangements." (Amended Complaint, page 11, paragraph 6, lines 21-24.)

The following are the additional arguments on the constitutionality of Section 2678 question made
directly to the district court:

For plaintiff and all other low-income FTCA plaintiffs, and quite possibly, the vast majority of
middle-income FTCA plaintiffs, past and future, a negotiated contingency fee arrangement with
an attorney of choice remains the only realistic option to obtain competent and experienced FTCA
legal counsel and representation in this type of federal court litigation. In 1966, Congress raised
the limit for the maximum percentage contingency fee arrangement permitted by FTCA § 2678
legislation to 25 percent. This maximum permitted limit imposed by Congress has remained the
same for the last 53 years. Even in 1966, the Senate Judiciary Committee Report No. 1327 at 2520
acknowledged that the increase to 25 percent at that time only brought "the fees more nearly in
line with those prevailing in private practice." (Amended Complaint, pages 11-12, paragraph 7.)
The FTCA provides the exclusive remedy for claims based upon the negligent or wrongful acts of
government employees, 28 USCS § 2679(a). By statute, 28 USCS § 1346(b) grants exclusive
jurisdiction in the district courts over tort claims against the government. Punitive or exemplary
damages are not available against the government. Furthermore, no allowance is permitted by
the FTCA to cover the plaintiffs legal fees and expenses, such as expert witness fees. The sole

4

remedy available to plaintiff under the FTCA is compensatory money damages, intended to make
the plaintiff whole once again. (Amended Complaint, page 12, paragraph 8.)
Following the receipt of the Form 95 tort claim (in compliance with FTCA § 2675) denial by the
Veterans Administration in February 2019, plaintiff engaged in a subsequent six month search for
competent legal counsel. During this entire process, plaintiff was unaware of the 25 percent
maximum contingency fee limitation imposed by Congress in the FTCA § 2678 legislation. Plaintiff
had settled in his own mind that 40 percent would have been an acceptable maximum limit for a
contingency fee arrangement. Plaintiff reasoned at the time that 60 percent of a compensatory
damages award (an amount intended to make plaintiff "whole" once again) would be much better
for plaintiff than 100 percent of nothing. Plaintiff was willing to offer an attorney 40 percent of
his compensatory damages award on a contingency fee basis. (Amended Complaint, page 12,
paragraph 9.)
Unbeknownst to plaintiff at the time, every FTCA attorney who plaintiff contacted to present his
case was bound by the provisions of FTCA § 2678(a), as enforced by the draconian terms of §
2678(b) upon wayward attorneys. Despite strenuous efforts, plaintiff could not obtain FTCA legal
representation in the six months permitted by the statute to do so. And, plaintiff was left only
with the option of either not receiving any compensatory damages for the negligent or wrongful
actions of Government employees or filing this FTCA lawsuit in pro per. Plaintiff filed this FTCA
lawsuit in pro per on August 6,2019. (Amended Complaint, page 12, paragraph 10.)
Plaintiff now has standing to bring this as-applied constitutional challenge to Federal Tort Claims
Act § 2678. An as-applied challenge is retrospective because it seeks to redress a constitutional
violation that has already occurred. At any time in the six-month period that plaintiff searched for
a competent and experienced FTCA attorney, plaintiff would have been willing to offer 40 percent
of his compensatory damages award on a contingency fee basis in exchange for legal
representation. (Amended Complaint, page 13, paragraph 11.)
It should be noted by any reviewing court that the Federal Government is the Defendant in all
Federal Tort Claims Act (FTCA) lawsuits and the Federal Government clearly stands to benefit by
this restrictive contingency fee legislation substantially limiting plaintiff's ability to obtain
competent and experienced legal counsel. (Amended Complaint, page 13, paragraph 12.)
The math is simple; a contingency fee arrangement even 1 percent above 25 percent maximum
level permitted by this act of Congress subjects a recalcitrant attorney to one year imprisonment,
a $2,000 fine, or both. And the consequences for low and middle income FTCA plaintiff-litigants
is catastrophic in that many would-be plaintiffs are simply not able to obtain FTCA legal
representation because of the detrimental provisions of § 2678 regarding contingency fee
arrangements with an attorney and must either file a lawsuit in pro per or relinquish meritorious
FTCA claims forever. (Amended Complaint, page 14, paragraph 15.)
Thus, with the right hand, Congress permitted "it possible for a person injured through the
negligence or wrongful act of a Government employee to file suit against the United States for
damages resulting from the injury when the employee was acting within his scope of
employment." And, then, with the left hand. Congress prohibited any contingency fee
arrangements exceeding 25 percent, which is several percentage points lower than the current
5

prevailing market rates for contingency fee arrangements in similar private tort claims cases.
(Amended Complaint, page 14, paragraph 17.)
Even now, after all of the time, work, and effort that plaintiff has put into this project, plaintiff
would be willing to enter into a 40 percent contingency fee arrangement with a competent and
experienced FTCA attorney to counsel and represent plaintiff to the conclusion of this Federal
Tort Claims Act (FTCA) lawsuit. However, Federal Tort Claims Act § 2678 effectively prevents
plaintiff from offering to legal counsel of plaintiffs choice a percentage contingency arrangement
greater than 25 percent. (Amended Complaint, page 14, paragraph 18.)
This Congressional "effective prohibition" of the right of a citizen to obtain legal counsel is
unconstitutional and should not continue!!!!!!!!! (Amended Complaint, page 14, paragraph 19.)
Case Facts [from Appellant's Informal Opening Brief, pages 7-8]
The case facts are the same as Appellant reported on the VA Form 95 tort claim that is required
by the Federal Tort Claims Act § 2675. And thereafter, the same case facts were reported in both
Appellant's federal district court Original Complaint and Amended Complaint.
The incident took place in the San Francisco VA Hospital Emergency Room on October 5, 2017.
The diagnosing and treating physician, Dr. Harry Han, failed to report my case as a food borne
illness to the local health authorities as required by California Code of Regulations, Title 17 Public
Health § 2500 Reporting to the Local Health Authority.
In fact, Dr. Han and Emergency Room nurse Debra Waite, RN did everything that they could
possibly do wrong in order NOT to report my condition as a food borne illness. A food borne illness
is defined in § 2500(a)(13) as an "illness suspected by a health care provider to have resulted from
consuming a contaminated food."
I purchased a tainted lamb roast at Bryan's Market in San Francisco. The next day, I barbequed
and consumed the meat on the night of October 3,2017. Within hours of going to bed, I woke up
and immediately knew that I must get to the bathroom to vomit. As soon as my feet touched the
floor, I realized that I had paralysis (loss of muscle function) in both legs.
I staggered to the bathroom and vomited for the next one and a half to two hours what I thought
at the time was the entire contents of my stomach. I vomited on two more occasions from my
bed thereafter with the last session emptying my stomach of vile-tasting bile. At one point in the
early morning hours of Wednesday, October 4,1 felt so terribly bad that I thought if i closed my
eyes and fell asleep, that I might not wake up again. And, so I forced myself to stay awake for
quite some time.
I could not afford an ambulance and waited to call the Nurse Aide hotline on Thursday, October
5 and reported my symptoms and condition. I was told to get into the VA Hospital as soon as
possible. I called my neighbor, who had my spare key to the apartment.
He helped me to his car and brought with us to the Emergency Room a large sample of the vomitus
in order to identify the cause of my foodborne illness and thereby direct my medical treatment.
[District Court Exhibit A; Supreme Court Appendix E - Neighbor's Statement.]

6

As noted in the official medical records, I arrived in a wheelchair. The admitting nurse wrote:
"Patient states he thinks he had food poisoning," However, my neighbor was told by the
Emergency Room admitting nurse, Debra Waite, RN, to dispose of the vomitus sample before an
Emergency Room physician had even seen me and considered the possibility of ordering specific
laboratory testing corresponding to the symptoms of my illness.
I now believe that the cause of my illness was Bacillus cereus of the emetic toxin type. According
to FoodSafety.gov, "Bacillus cereus is a type of bacteria that produces toxins that can cause two
types of illness: one type characterized by diarrhea and the other, called emetic toxin, by nausea
and vomiting. [Supreme Court Appendix F - FoodSafety.gov]
Onset of this disease is within approximately 6 hours and duration of the illness is 24 hours, which
is consistent with my experience. I had severe vomiting {but no diarrhea). Bacillus cereus is also
highly heat resistant according to medical literature on the subject. This would account for the
disease causing bacteria not being destroyed by my barbequing the meat.
The Emergency Room treating physician, Harry Han, MD, made no finding of a suspect food borne
illness and therefore made no report to the local health authorities as required by state law to do
so. Regarding my ability to walk with very great difficulty, Dr. Han wrote in the discharge papers
that I was "STRONGLY" advised to consult with my primary care doctor about my "walking
difficulties."
No mention is made by Dr. Han in his medical notes that I had reported to him that I had paralysis
in both legs as soon as I awoke to vomit in the early morning hours of October 4, 2017 and that I
had no trouble walking prior to going to bed that night. I received 2 liters of intravenous fluids
and was discharged at the end of the day on October 5, 2017. I left the Emergency Room in a
wheelchair because I could not walk on my own.
A medical misdiagnosis can do severe harm to a patient. In this case, plaintiff's opportunity to file
a strict liability negligence lawsuit against Bryan's Market for the sale of contaminated meat
causing all of plaintiffs medical injuries was foreclosed by physician's misdiagnosis and failure to
report plaintiffs suspect food borne illness of Bacillus cereus - emetic type to local health
authorities as required by California statute.
Plaintiff s FTCA § 2675 tort claim was denied by the VA. A mandatory federal FTCA lawsuit is the
only means permitted by the FTCA legislation to make an appeal of the VA decision.
Unquestionably, the very worst of Petitioner's medical injuries that resulted from this particular
foodborne illness incident has been the loss of both senses of taste and smell to the extent of 90 percent
or more, in Petitioner's estimation. Petitioner now expects this condition to last the rest of his life.

Second Question - Reason for Writ Allowance: In strict compliance with the U. S. Supreme Court
precedent in Ashcroft v. Iqbal, 556 U.S. 662, 678-679 (2009), was it not an abuse of discretion for the
federal Ninth Circuit Court of Appeals to refuse to consider newly found and specifically relevant
7

dispositive evidence completely discrediting the invalid syllogism of fact and law created by the Magistrate
Judge in the Screening Order which led directly to the unjust dismissal of Petitioner's legitimate FTCA
lawsuit?

The Ninth Circuit Court of Appeals controlling precedent opinion in Hicks [Golf Caddies] v. PGA Tour, Inc.,
897 F.3d 1109,1117 (2018) regarding the correct procedure for Rule 12(b)(6) case dismissal reviews by all
Ninth Circuit Courts of Appeals was written by Chief Judge Thomas:

We review de novo the district court's dismissal of the Caddies' complaint under Rule 12(b)(6) for
"failure to state a claim upon which relief can be granted." Vega v. United States, 881 F.3d 1146,
1152 (9th Cir. 2018). "To survive a motion to dismiss, a complaint must contain sufficient factual
matter, accepted as true, to 'state a claim to relief that is plausible on its face/" Ashcroft v. Iqbal,
556 U.S. 662,678,129 S.Ct. 1937,173 LEd.2d 868 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570,127 S.Ct. 1955,167 L.Ed.2d 929 (2007)). "A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged." Id. (citing Twombly, 550 U.S. at 556, 127 S.Ct.
1955). Applying this standard is a "context-specific task" that requires drawing on "judicial
experience and common sense." Id. at 679,129 S.Ct. 1937. (Emphasis added.)
Case Dismissal by the District Court

However, the majority opinion in Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009) also reads in pertinent part:

[A] court considering a motion to dismiss can choose to begin by identifying pleadings that,
because they are no more than conclusions, are not entitled to the assumption of truth. While
legal conclusions can provide the framework of a complaint, they must be supported by factual
allegations. When there are well-pleaded factual allegations, a court should assume their veracity
and then determine whether they plausibly give rise to an entitlement to relief. (Emphasis added.)
In the Screening Order (Supreme Court Appendix C) at page 3 (lines 17-21), the Magistrate Judge noted
that she had found a fatal factual flaw within the pleadings made by Plaintiff in the original complaint and
created the following syllogism of fact and law to explain her reasoning:

"[Sjection 2500(j), which provides the list of diseases healthcare providers must report to local
health authorities, does not require reporting of either infectious gastroenteritis or "Bacillus
cereus" infection. Doctors Han and Garber were therefore (sic) had no duty to report Plaintiffs
symptoms and were not negligent in failing to do so. As a consequence. Plaintiff has failed to state
a claim against the United States under 28 U.S.C. § 1346(b)."
8

The Magistrate Judge added in the Conclusion at page 4 (line 8-12):

Based on the allegations in the current complaint, the Court does not have jurisdiction over this
action, and Plaintiff has not sufficiently pleaded any of his claims. Plaintiff may file an amended
complaint by September 16, 2019, correcting these problems. Failure to amend the complaint to
cure the defects described in this order by September 16, 2019, will result in a recommendation
that this action be dismissed.
In the Order Dismissing Amended Complaint, at pages 3- 4, the District Court Judge acknowledged the
"factual" dispute of whether or not Bacillus cereus of the emetic toxin type was a reportable foodborne
illness under provisions of Title 17. Public Health, Section 2500. Reporting to the Local Health Authority:

In his amended complaint, plaintiff points to Section 2500(a)(13), which defines "foodborne
disease" as illness suspected to have resulted from consuming a contaminated food, non-water
beverage, or other ingestible item such as a dietary supplement or herbal remedy " Plaintiff
asserts that "foodborne disease" is a "general term that encompasses a number of specific
illnesses with distinctly different causes, and these causes are specifically listed in authoritative
medical reference sources available to all Emergency Room physicians" (Dkt, No. 10 at 15). He
thus complains of Judge Kim's analysis and reasserts that defendants had a duty to report his
"food borne illness." This order disagrees. [Emphasis added.]
Section 2500(a) merely provides governing definitions for various terms. Those definitions by
themselves, do not provide affirmative duties. Thus only the specific diseases and conditions listed
in Section 25000) remain relevant to the question of whether Dr. Han had a duty to report
plaintiffs symptoms under Section 2500(b). For the reason stated above, he did not. As such, even
assuming that Dr. Han erroneously diagnosed plaintiffs symptoms, he still had no duty to report
plaintiffs illness under Section 2500(b). [Emphasis added.]
The published Barclay's Official California Code of Regulations for 17 CCR § 2500 (j) does not list within
the alphabetized category titled "Foodborne Disease Giardiasis Gonococcal Infections" the specific
Foodborne Diseases that are reportable within this category. And, there is no footnote reference to where
this specific information may be located within Barclay's Official California Code of Regulations. [See
Supreme Court Appendix H. Section 2500 legislation, page #3, shows the alphabetized listing for
Foodborne Diseases and the indicated requirement that a qualifying suspect foodborne illness case must
be reported to the local health authority "within one (1) working day" according to the statute, with both
civil and criminal penalties forfailures to comply. Every day unreported is considered a separate offense.]

9

Plaintiff, in his amended complaint, by means of Exhibit F, attempted to forestall the erroneous conclusion
of law that District Court Judge Alsup subsequently reached regarding the legislated duty of a diagnosing
physician to report a suspect case of a Bacillus cereus-emetic type illness to the San Francisco local health
authority. Plaintiffs Exhibit F consists of five pages from the federal Center for Disease Control (CDC)
publication titled "Diagnosis and Management of Food Borne Illnesses" and subtitled "A Primer for
Physicians and Other Health Care Professionals." (Amended Complaint - page 15, paragraph 3; Appellant's
Opening Brief, page 10.) Thus, Plaintiff presented to both the district court and the appellate court
unequivocal evidence that the CDC considered Bacillus cereus toxin infections to be a very serious
foodborne illness nationwide. [Supreme Court Appendix G - CDC's "Diagnosis of Foodborne Illnesses."}

Nonetheless, District Court Judge William H. Alsup doubled down on Magistrate Judge Kim's invalid
syllogism of fact and law. The District Judge wrote in conclusion that "even assuming that Dr. Han
erroneously diagnosed plaintiffs symptoms, he still had no duty to report plaintiffs illness under Section
2500(b)." (Order Dismissing Amended Complaint, page 4, lines 1-2.)

However, after the issuance of Judge Alsup's Order Dismissing Amended Complaint, Petitioner found by
chance on the California Department of Public Health's website, an official California Department of Public
Health form titled FOODBORNE DISEASE OUTBREAK REPORT. Within section 14.1 ETIOLOGY #1 - DETAILS
(PRIMARY CASES ONLY), there is a list of reportable foodborne diseases in checkbox format from which
the reporting health care provider can select. The first specific disease checkbox option listed is "Bacillus
cereus toxin!" [Ninth Circuit Form 27: Motion for Taking Judicial Notice to Supplement Record. See
Supreme Court Appendix H.]

It is now a "fact" that Bacillus cereus — emetic type was a reportable foodborne disease according to the
California Department of Public Health, the state agency administratively responsible for the state's
uniform food safety law, the California Retail Food Code. This now indisputable "fact" also constitutes

10

incontrovertible proof that U. S. District Court Judge Alsup's conclusion of law that "even assuming that
Dr. Han erroneously diagnosed plaintiff's symptoms, he still had no duty to report plaintiff’s illness under
Section 2500(b)," is unequivocally incorrect. And, now, Magistrate Judge Kim's invalid syllogism of fact
and law in her Screening Order has been proven to be based upon her factually-incorrect syllogism
premise:

"[S|ection 2500(j), which provides the list of diseases healthcare providers must report to local
health authorities, does not require reporting of either infectious gastroenteritis or "Bacillus
cereus" infection. Doctors Han and Garber were therefore (sic) had no duty to report Plaintiff's
symptoms and were not negligent in failing to do so. As a consequence, Plaintiff has failed to state
a claim against the United States under 28 U.S.C. § 1346(b)."
Thus, Magistrate Judge Kim's erroneous conclusion of law that "Plaintiff has failed to state a claim against
the United States under 28 U.S.C. § 1346(b)," is now also shown to be indisputably wrong. The false
statement of "fact" made by the Magistrate Judge in the Screening Order was ultimately the sole basis of
Petitioner's case dismissal by the federal district court judge. The "Motion for Taking Judicial Notice to
Supplement Case Record," definitively demonstrates that the District Court's finding of fact that Plaintiff's
alleged reportable foodborne illness. Bacillus cereus - emetic type, was NOT a reportable foodborne
illness to local health authorities as required by the relevant state law, 17 CCR § 2500, to be indisputably
wrong.

Case Dismissal Affirmed by the Court of Appeals

"The district court properly dismissed Lockmiller's negligence claim against the United States
because Lockmiller failed to allege facts sufficient to state a plausible claim. See Ashcroft v. Iqbal,
556 U.S. 662,678 (2009) ("A claim has facial plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference that the defendant is liable for misconduct
alleged.") Lam v. United States, 979 F.3d 665,672 (9th Cir. 2020) (setting forth elements of a FTCA
claim.)" Ninth Circuit Court of Appeals MEMORANDUM [Emphasis added.]
The Court of Appeals "denied" without any explanation Petitioner's Form 27-"Motion for Taking Judicial
Notice to Supplement Case Record." The Motion definitively demonstrates that the District Court's finding
of fact that Plaintiff's alleged reportable foodborne illness. Bacillus cereus - emetic type, was NOT a

11

reportable foodborne illness to local health authorities as required by the relevant state law, to be
indisputably wrong. However, it is eminently unclear if the Motion was both read and considered by the
members of the Court of Appeals. The Court of Appeals wrote simply: "All pending motions are denied."

Justice Gorsuch of the United States Supreme Court recently wrote in a dissenting opinion from the denial
of certiorari in Shkelzen Berisha v. Guy Lawson, Et Al, 594 U. S.

(2021):

At the founding, the freedom of the press generally meant the government could not impose prior
restraints preventing individuals from publishing what they wished. But none of that meant
publishers could defame people, ruining careers or lives, without consequence. Rather, those
exercising thefreedom of the press had a responsibility to try to get the facts right—or, like anyone
else, answer in tortfor the injuries they caused. (Emphasis added.]
Justice Gorsuch's moral aphorism would seem also to apply in some manner to all members of the
judiciary regarding their judicial duty and "responsibility to try to get the facts right," especially when one
erroneous "fact" alone in a Screening Order by a Magistrate Judge might well lead directly to an unjust
dismissal of a legitimate plaintiffs FTCA lawsuit.

Abraham Lincoln, before he became President, faced a quite similar situation to that which Petitioner now
faces. Lincoln wrote a letter to the editor of the Illinois Gazette, making a moral argument regarding
persons who assert an important "fact," without actually knowing whether the "fact" is true or false:

If Mr. Woodward has given such assurance of my character as your correspondent asserts, I can
still suppose him to be a worthy man; he may have believed what he said; but there is, even in
that charitable view of his case, one lesson in morals which he might, not without profit, learn of
even me - and that is, never to add the weight of his character to a charge against his fellow man,
without knowing it to be true. I believe it is an established maxim in morals that he who makes an
assertion without knowing whether it is true or false, is guilty of falsehood; and the accidental
truth of the assertion, does not justify or excuse him. This maxim ought to be particularly held in
view, when we contemplate an attack upon the reputation of our neighbor. [Emphasis added.]
(From a letter to editor of the Illinois Gazette; Springfield, Illinois, August 11,1846. Basler, Roy A.
"Personal Recollections of Abraham Lincoln." Cleveland: World Publishing Co., 1946, p. 187.)
The United States Supreme Court has declared itself on the subject of "facial plausibility":

12

"A claim has facial plausibility when the plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged." Ashcroft
v. Iqbal, 556 U.S. 662, 678, (citing Twombly, 550 U.S. at 556.)
Plaintiffs Amended Complaint (page 17 of 17, lines 4-13) regarding the "facial plausibility" of the First,
Second, and Third Claims reads as follows:

Plaintiffs Federal Tort Claims Act injury was due to the negligence of San Francisco VA Hospital
ER diagnosing and treating physician, Dr. Harry Han, acting within the scope of his employment
on October 5, 2017. In failing to correctly diagnose plaintiffs food borne illness as Bacillus cereus
- emetic type and his consequential failure to report plaintiffs suspect case to the local health
authorities in mandatory compliance with California Code of Regulations, Title 17, Sec. 2500(b),
plaintiff may have lost all possibility to hold Defendant Bryan's Market, the retail food
establishment that sold to plaintiff the tainted meat actually causing Plaintiffs medical injuries,
strictly liable for negligence in state court. Dr. Garber, Head of the VA Hospital Emergency Room,
was negligent in not meeting his statutory duty under section 2500(c) to establish procedures to
assure reporting compliance.
It is now a proven "fact" that Petitioner's alleged food borne illness, Bacillus cereus - emetic type, is a
mandatory reportable foodborne illness to local health authorities in California under California Code of
Regulations, Title 17, Sec. 2500(b).
The question now before the Justices of the United States Supreme Court to decide is:

"In strict compliance with the U. S. Supreme Court precedent in Ashcroft v. Iqbal, 556 U.S. 662,
678-679 (2009), was it not an abuse of discretion for the federal Ninth Circuit Court of Appeals to
refuse to consider newly found and specifically relevant dispositive evidence completely
discrediting the invalid syllogism of "fact" and law created by the Magistrate Judge in the
Screening Order which led directly to the unjust dismissal of Plaintiffs legitimate FTCA lawsuit?"
Altogether, it does not appear that Petitioner's Rule 12(b)(6) case dismissal review by the Ninth Circuit
Court of Appeals was conducted in accordance with the binding authority precedent of the Ninth Circuit
Court of Appeals in Hicks [Golf Caddies] v. PGA Tour, Inc., 897 F.3d 1109,1117 (2018).

Reasons for Writ Allowance - FTCA § 2678 and Ashcroft v. Iqbal Historical Perspectives

The Second Question posed to the Justices of the U. S. Supreme Court would never have become an issue
but for the unconstitutionality of FTCA § 2678. A competent and experienced FTCA attorney would not

13

have accepted a medical malpractice lawsuit on a contingency fee basis without first obtaining a
supporting preliminary medical expert opinion upon which to base his or her decision to accept

Congress considered passage of legislation such as the Federal Tort Claims Act (FTCA) for more than
twenty years. Then, a tragic event occurred in 1945 that brought the Congress to legislative action.

The Federal Tort Claims Act was passed following the 1945 B-25 Empire State Building crash,
where a bomber piloted in thick fog by a U. S. [military officer] crashed into the north side of
the Empire State Building. Eight months after the crash, the U.S. government offered money to
families of the victims. Some accepted, but others initiated a lawsuit that resulted in landmark
legislation. The Federal Tort Claims Act of 1946, for the first time, gave American citizens the right
to sue the federal government. Although the crash was not the initial catalyst for the bill, which
had been pending in Congress for more than two decades, the statute was made retroactive to
1945 in order to allow victims of that crash to seek recovery. (Source: Wikipedia - FTCA)
The FTCA provides the exclusive remedy for claims based upon the negligent or wrongful acts of
government employees, 28 USCS § 2679(a). By statute, 28 USCS § 1346(b) grants exclusive
jurisdiction in the district courts over tort claims against the government. Punitive or exemplary
damages are not available against the government. Furthermore, no allowance is permitted by
the FTCA to cover the plaintiffs legal fees and expenses, such as expert witness fees. The sole
remedy available to plaintiff under the FTCA is compensatory money damages, intended to make
the plaintiff whole once again. {Supra, at 4-5.)
Thus, for the first time in the history of this democracy, Congress grudgingly yielded a measure of
sovereign immunity in granting to every citizen the right to recover compensatory damages only for claims
based upon the negligent or wrongful acts of government employees. This long-delayed legislated act of
simple justice was accomplished by means of the Federal Tort Claims Act.

In Perry v. United States, 294 U.S. 330, 353 (1935), the Supreme Court previously acknowledged this
important legislative prerogative of Congress: the "right to make binding obligations is a competence
attaching to sovereignty." In 1935, the Perry Supreme Court, however, added an important caveat as a
form of constitutional warning for Congress to bear in mind. In expressing agreement with the message
of Alexander Hamilton to the Senate in 1795, the Supreme Court thus forewarned and cautioned the
Congress of a prospective constitutional boundary to the legislative powers of Congress {Id. at 379-380.):

14

i

These words of Alexander Hamilton ought not to be forgotten: "[Congress's] promises may be
justly considered as excepted out of its power to legislate, unless in aid of them. It is in theory
impossible to reconcile the idea of a promise which obliges with a power to make a law which can
vary the effect of it." {3 Hamilton's Works 518-519.) (Emphasis added.)
But, only eleven years later, this is exactly what Congress did do by means of the § 2678 FTCA legislation.
Congress legislatively "var[ied] the effect" of the obliging promise made to all citizens seeking justice with
the inclusion of § 2678 as an integral part of the 1946 FTCA legislation. This legislative inequity was
explained in detail by Petitioner to both the district court and the Court of Appeals (Supra, pages 4-5):

It should be noted by any reviewing court that the Federal Government is the Defendant in all
Federal Tort Claims Act (FTCA) lawsuits and the Federal Government clearly stands to benefit by
this restrictive contingency fee legislation substantially limiting plaintiff's ability to obtain
competent and experienced legal counsel. (Amended Complaint, page 13, paragraph 12.)
The math is simple; a contingency fee arrangement even 1 percent above 25 percent maximum
level permitted by this act of Congress subjects a recalcitrant attorney to one year imprisonment,
a $2,000 fine, or both. And the consequences for low and middle income FTCA plaintiff-litigants
is catastrophic in that many would-be plaintiffs are simply not able to obtain FTCA legal
representation because of the detrimental provisions of § 2678 regarding contingency fee
arrangements with an attorney and must either file a lawsuit in pro per or relinquish meritorious
FTCA claims forever. (Amended Complaint, page 14, paragraph 15.)
Thus, with the right hand, Congress permitted "it possible for a person injured through the
negligence or wrongful act of a Government employee to file suit against the United States for
damages resulting from the injury when the employee was acting within his scope of
employment." And, then, with the left hand, Congress prohibited any contingency fee
arrangements exceeding 25 percent, which is several percentage points lower than the current
prevailing market rates for contingency fee arrangements in similar private tort claims cases.
(Amended Complaint, page 14, paragraph 17.)
For six months following the § 2675 VA claim denial. Petitioner sought in vain to retain legal counsel and
representation in court based on a contingency fee arrangement. Petitioner was unaware that § 2678 of
the FTCA prohibited every attorney to whom he presented his case to a maximum "charity rate" of 25
percent. Petitioner had settled in his own mind that 40 percent would be an acceptable maximum limit,
based on his own logical thinking that 60 percent of something is much better than 100 percent of nothing.

15

In the eyes of the Perry Supreme Court, Congress would have been viewed as having unconstitutionally
"varied the effect" of the obliging promise made by Congress to all citizens. Following the Supreme Court
precedent in Perry v. United States, this Supreme Court should declare FTCA§ 2678 to be unconstitutional.

Regarding the Second Question, Justice Gorsuch's moral aphorism must apply to all members of the
judiciary regarding their judicial duty and "responsibility to try to get the facts right," especially when one
erroneous "fact" alone in a Screening Order by a Magistrate Judge might well lead directly to an unjust
dismissal of a legitimate plaintiffs FTCA lawsuit. As previously stated, regarding the duty of publishers "to
get the facts right," Justice Gorsuch wrote in dissent from a recent denial of certiorari {Shkelzen Berisha):

[N]one of that meant publishers could defame people, ruining careers or lives, without
consequence. Rather, those exercising the freedom of the press had a responsibility to try to get
the facts right—or, like anyone else, answer in tort for the injuries they caused. (Emphasis added.)
The Second Question presented in this Petition for Writ of Certiorari reads:

In strict compliance with the U. S. Supreme Court precedent in Ashcroft v. Iqbal, 556 U.S. 662,
678-679 (2009), was it not an abuse of discretion for the federal Ninth Circuit Court of Appeals to
refuse to consider newly found and specifically relevant dispositive evidence completely
discrediting the invalid syllogism of fact and law created by the Magistrate Judge in the Screening
Order which led directly to the unjust dismissal of Petitioner's legitimate FTCA lawsuit?
The Magistrate Judge made the "factual" mistake that directly resulted in the dismissal of Petitioner's
legitimate FTCA lawsuit. Plaintiffs statement of "fact" in the complaint regarding statute-mandated
reporting of Bacillus cereus foodborne illnesses was correct. The Supreme Court in Ashcroft wrote:

"To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as
true, to 'state a claim to relief that is plausible on its face.'" Ashcroft v. Iqba\, 556 U.S. 662, 678,
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570, (2007)).... "When there are wellpleaded factual allegations, a court should assume their veracity and then determine whether
they plausibly give rise to an entitlement to relief." {Id. at 679.) (Emphasis added.)
Conclusion: Petitioner Lockmiller respectfully requests that this Court issue a writ of certiorari to review
the judgment of the Ninth Circuit Court of Appeals.
:
Date:

Signature:

Un/

16

